BASELINE REPORT ON THE
   LOWER MANHATTAN
  RECOVERY PROJECTS
  Federal Transit Administration

  Report Number: MH-2008-086
 Date Issued: September 26, 2008
           U.S. Department of
                                                                  Memorandum
           Transportation
           Office of the Secretary
           of Transportation
           Office of Inspector General


Subject:   ACTION: Baseline Report on the                                                   Date:    September 26, 2008
           Lower Manhattan Recovery Projects
           Federal Transit Administration
           Report Number MH-2008-086
                                                                                         Reply to
                                                                                         Attn. of:   JA-40
  From:    Joseph W. Comé
           Assistant Inspector General
             for Highway and Transit Audits

    To:    Federal Transit Administrator


           This report provides the results of the Office of Inspector General (OIG) review of
           the Federal Transit Administration’s (FTA) oversight of the Lower Manhattan
           Recovery Projects. In response to the extensive devastation caused by the
           September 11, 2001, terrorist attacks, the Federal Government dedicated
           $4.55 billion to fund projects to reconstruct and enhance Lower Manhattan’s
           transportation infrastructure. Completing the five Lower Manhattan Recovery
           Projects will be challenging because they are massive in scale, technically
           complex, and intended to be constructed on expedited time frames and within a
           Federal funding cap. In addition, the projects require oversight of numerous
           stakeholders who must coordinate the projects with contractors in a small
           geographic area.

           FTA has lead responsibility for distributing and overseeing the $4.55 billion in
           funding. In 2002, FTA established the Lower Manhattan Recovery Office
           (Recovery Office)—separate from its New York Regional Office 1 —whose
           mission is to provide a streamlined project delivery system and strong stewardship
           of Federal transportation funding dedicated to Lower Manhattan recovery.
           According to FTA, in order to carry out this mission, the Recovery Office adopted
           one of FTA’s innovative approaches to project development and oversight to
           ensure that these projects are built on-time and on-budget. This innovative


           1
               In January 2007, the Recovery Office Director began reporting to the FTA Region 2 Administrator.
                                                                                                                   2


approach was to develop a risk management process customized to the level and
kind of oversight required for each project.

In a July 13, 2006, congressional testimony before the House Homeland Security
Subcommittee on Management, Integration, and Oversight, we testified that
effective day-to-day oversight of the Lower Manhattan Recovery Projects was
critical to ensuring that they were completed on time, within budget, and devoid of
fraud, waste, or abuse. 2 At the request of the subcommittee, we performed this
audit to provide an independent perspective on the projects over time.

Our primary objectives were to assess: (1) the status of each project, including
costs, funding, schedules, and grantees’ oversight and (2) any risks that may
adversely impact completion of each project. We also evaluated FTA’s oversight
of the Lower Manhattan Recovery Projects and the activities of the project
management oversight contractors that FTA has assigned to each project.

RESULTS IN BRIEF
This report highlights key challenges facing FTA and its grantees on the Lower
Manhattan Recovery Projects, and actions FTA has taken, and should continue to
take, to address them. The challenges include mitigating risks posed by estimated
cost increases and schedule delays, ensuring grantees provide timely status
information and address project management issues that FTA has identified,
assessing ways to improve the use of FTA’s oversight tools, and identifying
reliable funding sources to cover probable cost estimate overruns.

Particular project challenges have been the significant estimated cost increases and
schedule delays. For example, the risk assessments 3 that FTA contractors
conducted for the Permanent Port Authority Trans-Hudson (PATH) Terminal
project and the Fulton Street Transit Center project indicated that project costs
may now exceed the Federal and local funds committed. For the overall Lower
Manhattan Recovery Projects, estimated costs have increased over the Federal
funds committed in amounts ranging from $76 million on the South Ferry
Terminal Station project to $800 million on the PATH Terminal project. In
addition, the Lower Manhattan Recovery Projects may experience significant
schedule delays for completion, ranging in duration from 11 months to 41 months.

External factors that were not under the control of FTA and its grantees
contributed to estimated cost increases and schedule delays. These factors

2
    OIG Testimony CC-2006-056, “Lower Manhattan Reconstruction: Lessons Learned from Large Transportation
    Projects,” July 13, 2006. OIG testimonies and reports can be accessed on our website at www.oig.dot.gov.
3
    FTA conducts risk assessments to analyze project development and management and to develop potential costs and
    schedule estimates as a snapshot in time, based on known project conditions and risks. The latest risk assessment
    information represents a 90-percent probability forecast for costs and schedules.
                                                                                 3


included unpredictable cost growth due to rising construction material and fuel
prices and intense competition with other major projects in the New York City
area, including two FTA New Starts projects. However, factors under their
control, such as stronger FTA oversight in the early stages of project development
and better management practices on the part of grantees, could have reduced the
impact of the external factors.

To address project management challenges, including those contributing to
estimated cost increases and schedule delays, FTA has recommended actions that
the Port Authority of New York & New Jersey (Port Authority) and the
Metropolitan Transportation Authority (MTA), the grantees receiving the greatest
amount of recovery funding must take. For example, in response to a risk
identified through the risk management process, FTA recommended that the Port
Authority conclude critical contract price negotiations with its construction
manager/general contractor on the PATH Terminal project. Because the Port
Authority did not do this, FTA reiterated this recommendation in a March 2008
report. Additionally, FTA requested that the Port Authority provide more timely
cost and schedule information. Further, in its March 2008 report, FTA reported
that the Port Authority needed to make significant changes in its management
approach to completely demonstrate its technical capacity and capability to
effectively manage its two Lower Manhattan Recovery Projects—the Permanent
World Trade Center PATH Terminal and the World Trade Center Vehicle
Security Center.

The previous Port Authority management disagreed with the March 2008 report,
but new Port Authority management issued its own report in June 2008
acknowledging the magnitude of the challenges it faces, a situation that presents
an opportunity for the Port Authority and FTA to work fully through project
management issues and take the necessary corrective actions. We recognize that
FTA and the Port Authority have been working diligently to resolve their
differences; but a successful resolution will require a sustained focus by both
parties.

Estimated cost increases and schedule delays underscore the need for FTA to
assess additional actions it could take to maximize the Federal Government’s large
investment in Lower Manhattan, such as making better use of recovery plans. We
concluded that FTA’s recovery plans, which are required by construction
agreements, have not achieved their goal of maintaining baseline cost estimates
and required completion dates. A recovery plan should identify actions a grantee
can take to “recover” the baseline cost and schedule estimates contained in the
construction agreements, to the maximum extent possible. However our review of
recovery plans concluded that while in some instances the recovery plans included
actions to reduce the impact of the identified risks, they were largely prepared to
                                                                                     4


document why estimated cost increases or schedule delays had occurred and to
establish new estimates.

Due to significant estimated cost increases and schedule completion delays, tough
choices lie ahead. While the initial goal was to keep the projects as close to
100 percent Federal funding as possible and within an overall Federal funding cap,
current cost estimates now indicate that this is not an achievable goal. As a result,
project grantees will likely have to provide their own funding to complete the
projects as designed, or propose to significantly reduce the scope of one or more
of the projects, potentially diminishing the benefits that the projects will provide to
travelers in New York City. While both of these options are potential solutions,
they introduce additional risks to completing the projects, such as the reliability of
the additional funds committed and the need for scope reductions to be designed
and negotiated between the parties. In addition, FTA would need to review the
local funding sources identified for reliability or concur with any of the proposed
reductions in scope.

To its credit, in the past year, FTA stepped up its oversight and identified actions
that grantees must take to put the projects on a sound footing. This increased
oversight is appropriate considering the significant amount of Federal funding
provided for the Lower Manhattan Recovery Projects and FTA’s oversight
requirements are stipulated in the construction agreements that grantees agreed to
when they accepted Federal funding. These agreements make it clear that FTA is
to provide oversight of each project with the intention of keeping them on budget
and on schedule. We recognize that FTA must carefully balance its stewardship
responsibility for protecting the $4.55 billion with the limitations of its oversight
authority, and that it faces difficult decisions in determining whether any problem
is serious enough to warrant a temporary suspension of a grantee’s ability to draw
down Federal funds. Accordingly, we are making a series of recommendations
designed to enhance FTA’s oversight of the projects. A complete list of our
recommendations is on page 22.

We provided a draft of this report to FTA and FHWA on August 7, 2008, for
review and comment. FTA provided us its formal comments with technical
clarifications on September 5, 2008. We incorporated into this report FTA’s
suggested technical clarifications and comments, as appropriate. For example,
FTA commented that the draft report did not clearly recognize that the external
factors impacting the Lower Manhattan Recovery Projects were beyond FTA and
the grantees’ control. We agreed with that distinction and made clarifications in
the report. FTA generally concurred with our recommendations. A summary of
its comments and our responses are on pages 23 through 26. FTA’s complete
comments are included as the appendix to this report. FHWA provided informal
comments, which we also incorporated into this report, as appropriate.
                                                                                                           5


      BACKGROUND
      To date, five Lower Manhattan Recovery Projects have been funded from the
      $4.55 billion—the Permanent World Trade Center PATH Terminal, the Fulton
      Street Transit Center, the South Ferry Terminal Station, the World Trade Center
      Vehicle Security Center, and the Route 9A/West Street Promenade highway
      project (North and South). The projects are indicated in figure 1 below.

              Figure 1. Map of the Lower Manhattan Recovery Projects




                                                                                                      Fulton Street
Route 9A                                                                                              Transit Center
Promenade
North and
South
                                                                                                        PATH
                                                                                                        Terminal




                                                                                                        Vehicle Security
                                                                                                        Center



South Ferry
Terminal
Station



                   Source: FTA Lower Manhattan Recovery Office.
                   Note: The “L” markings on the map indicate other major construction projects in the area.



      A summary of project descriptions are provided in table 1 on the next page.
                                                                                                         6



  Table 1. Project Descriptions and Committed Federal Funding
           for the Lower Manhattan Recovery Projects
                                                                                          Committed
 Project and Grantee                          Project Description                           Federal
                                                                                           Funding
Permanent World            Intermodal transportation facility that will provide           $2.2 billion
Trade Center PATH          pedestrian connections to adjacent subway, ferry, and bus
Terminal                   systems and facilities and the World Trade Center
Grantee:                   Memorial and cultural facilities.
Port Authority of New
York & New Jersey
World Trade Center         Security center for the screening of vehicles to support       $478 million
Vehicle Security Center operations of the World Trade Center Transportation Hub
Grantee:                   and Memorial and other facilities. Will also provide for a
Port Authority of New      bus parking area.
York & New Jersey
Fulton Street Transit      Above-ground transit center with a special dome and            $847 million
Center                     circular opening, underground concourse linking the transit
Grantee:                   center to the subway and World Trade Center site, and
Metropolitan               expanded mezzanines and passageways.
Transportation
Authority
South Ferry Terminal       Includes a subway tunnel, a rebuilt station, and new           $420 million
Station                    terminal with additional egress points and Americans with
Grantee:                   Disabilities Act accessibility.          Additional project
Metropolitan               components include construction of underground support
Transportation             walls, Battery Park improvements, and public art.
Authority
Route 9A Promenade         Landscaped promenade in the southern portion of Route           $88 million
South                      9A, repairing two westbound Battery Place roadways.
Grantee:
New York State
Department of
Transportation
Route 9A Promenade         Restore the Route 9A roadway to its pre-September 11           $296 million
North                      configuration, widen the frontage sidewalk adjacent to the
Grantee:                   World Trade Center Memorial and Freedom Tower, and
New York State             raise the grade of the Route 9A surface.
Department of
Transportation
Source: FTA.
Note 1: The Route 9A project was split into two projects—North and South.
Note 2: The scope of the Vehicle Security Center project is under discussion and may change.

In accordance with an August 2002 memorandum of agreement between the
Federal Emergency Management Agency (FEMA) and the U.S. Department of
Transportation (with FTA as the lead agency), FEMA provided $2.75 billion “to
cover expenses incurred in repairing or rebuilding public transportation facilities
and systems damaged by the September 11, 2001 attacks.” In addition, Congress
appropriated $1.8 billion to FTA to fund transit projects in the area with the intent
that these projects would be 100-percent federally funded. The memorandum of
                                                                                                                      7


agreement allows FTA to determine which projects are eligible to receive Federal
funding. Accordingly, FTA (through the Recovery Office) has the ultimate
responsibility for overseeing the total $4.55 billion in Lower Manhattan
transportation recovery funding. From the $4.55 billion, nearly $87 million has
been dedicated for the Recovery Office’s oversight activities. 4 As of September
2008, approximately $47 million from the $4.55 billion was not allocated to a
project.

We conducted our work from August 2006 through August 2008, in accordance
with Generally Accepted Government Auditing Standards as prescribed by the
Comptroller General of the United States.     Our objectives, scope, and
methodology are discussed in exhibit A.

FINDINGS

Lower Manhattan Recovery Projects Have Experienced Significant
Estimated Cost Increases and Schedule Delays
According to FTA and the grantees, estimated cost increases and schedule delays
resulted from several external factors, such as the Federal Government
commitment to fund the projects before final design occurred, a rise in real estate
values, the escalation of material and fuel costs, a shortage of contractors and
subcontractors, and the nonavailability of equipment. These factors are an
indication that the projects are being constructed in a challenging environment,
and underscore the need for strong oversight and sound management practices.

Cost Estimates Have Increased Significantly
MTA’s Fulton Street Transit Center project illustrates the cost-related challenges
that the Lower Manhattan Recovery Projects have experienced. Specifically, the
initial cost estimate for the Fulton Street Transit Center project, which was
released in February 2003, was $750 million. The cost estimate as of February
2008 was $888 million, an 18 percent increase. Also, the project had already
undergone several design revisions to mitigate rising cost estimates, such as
changes to the design of the project’s glass roof opening. Further, in the fall of
2007, the project management oversight contractor 5 retained by FTA conducted a
risk assessment and estimated that costs for the Fulton Street Transit Center
project could rise to approximately $1 billion. In an effort to stem the increasing

4
    The $87 million is comprised of $18 million from Public Law 107-206, which states that the Secretary of
    Transportation could use up to 1 percent of the $1.8 billion in FTA funding for oversight activities and $69 million
    provided through the FTA-FEMA memorandum of agreement. The memorandum states that FEMA would fund
    FTA’s project oversight expenses, up to 2.5 percent of its $2.75 billion contribution.
5
    A project management oversight contractor is retained by FTA to evaluate a grantee’s technical capacity to build,
    operate, and maintain a project, and to monitor the grantee’s implementation of a project. They are contractors
    who review FTA-funded projects in accordance with FTA guidance.
                                                                                                           8


costs of the project, at the time of this report, MTA was in the process of revising
its procurement strategy and design of the project’s above-ground structure, which
could result in a significantly modified version of the original design.

Table 2 provides more details on the upward trend in cost estimates that we have
observed on the projects. In summary, cost estimates have increased in amounts
ranging from $76 million on the South Ferry Terminal Station project to
$800 million on the PATH Terminal project, based on a comparison of the
construction agreement’s baseline cost estimate and FTA’s latest risk assessment
estimate.

             Table 2. Upward Cost Estimates for the Projects
                                                                                        Latest FTA Risk
                                                                                        Assessment Cost
                       Initial Cost                                                     Estimate
                       Estimate           Construction             Grantee’s            (Date Risk
                       (Date of           Agreement-Baseline       Official Cost        Assessment
Projects               Estimate)          Cost Estimate(1)         Estimate(2)          Conducted)
Permanent World        $1.7 billion to    $2.2 billion             $2.4 billon          $3 billion
Trade Center           $2 billion                                                       (Dec. 2007)
PATH Terminal          (Feb. 2003)
World Trade            $500 million         Pending(3)                $566 million         $763 million
Center Vehicle         (Feb. 2003)                                                         (Dec. 2007)
Security Center
Fulton Street             $750 million      $847 million               $888 million        $1.1 billion
Transit Center            (Feb. 2003)                                                      (Sep. 2007)
South Ferry               $400 million      $420 million               $453 million        $496 million
Terminal Station          (Feb. 2003)                                                      (May 2008)
Route 9A                  $88 million       Not Applicable(5)         $88 million          Not Applicable(5)
Promenade                 (Dec. 2003)
South(4)
Route 9A                  $293 million      $296 million              $284 million         $401 million
Promenade                (Dec. 2003 and                                                    (Jan. 2008)
North(4)                  June 2005
Source: FTA.
(1)
    A baseline cost estimate reflects the total anticipated cost of the project at the time FTA and a grantee
    sign a construction agreement. The baseline is used by FTA to monitor a grantee’s construction of a
    project and its compliance with the terms of the construction agreement.
(2)
    Data as of February 2008, based on grantees’ official estimates.
(3)
    Execution of a construction agreement is anticipated in the fall of 2008.
(4)
    The Route 9A project was split into two projects—North and South.
(5)
    A construction agreement and a risk assessment were not used on this project.

External Factors Have Presented Significant Cost Challenges to the
Projects
The Lower Manhattan Recovery Projects are being constructed in a challenging
environment, where external factors are contributing to significant cost increases.
Specifically, the projects are facing the prospect of additional and unpredictable
                                                                                                      9


cost growth due to intense competition with other major projects in the New York
City area for labor and materials. For example, the projects must compete for
labor and materials with FTA’s New Starts projects, such as the large-scale
Second Avenue Subway and East Side Access projects. To minimize the impact
of external factors on the Lower Manhattan Recovery Projects, FTA and its
grantees must continue their aggressive pursuit of effective oversight and good
management practices—factors that are under their control.

In addition to competition with New Starts projects, the Lower Manhattan
Recovery Projects are also in competition with general construction in the area.
For example, several construction teams were expected to bid on the last
construction package of MTA’s Fulton Street Transit Center project; but because
the construction teams were already committed to other construction work in New
York City, they decided not to do so. Consequently, MTA extended the
solicitation due date several times between July and December 2007 in order to
pre-qualify additional potential contractors. Ultimately, those efforts were
unsuccessful because, of the two firms that were pre-qualified, only one submitted
a formal bid. Based on the project documents we reviewed, the bid submitted was
significantly higher than anticipated; consequently, MTA is vetting other
construction alternatives in an implementation plan, which must be approved by
the MTA Board. FTA must continue to monitor the status of MTA’s
implementation plan, to determine its impact on the construction agreement
between FTA and MTA.

MTA and OIG have also reported on the challenge that higher material costs
places on transit and highway construction projects. Specifically, in its recent
study of factors affecting its 5-year capital construction program, MTA concluded
that one of the factors was the escalating cost of construction materials. For
example, since 2003, it has experienced price increases of 91 percent for steel,
25 percent for cement, and 85 percent for asphalt.

Further, our September 2007 report on highway construction and maintenance
costs 6 reported on similar trends for cost increases on highway project
commodities, such as steel and asphalt. We concluded that nationwide highway
construction and maintenance costs grew approximately three times faster from
2003 through 2006 than their fastest rate during any 3-year period between 1990
and 2003. The most recent growth trend substantially reduced the purchasing
power of highway funds. In our opinion, many of the same factors would affect
transit projects.



6
    OIG Report Number CR-2007-079, “Growth in Highway Construction and Maintenance Costs,” September 26,
    2007.
                                                                                 10


Estimated Project Schedules Have Shown Significant Completion Delays
The estimated completion dates for the Lower Manhattan Recovery Projects
showed significant schedule delays, of several years in some cases. Both the Port
Authority and MTA were unable to estimate realistic completion dates for the
PATH Terminal, Vehicle Security Center, and Fulton Street Transit Center
projects. Carefully managing project schedules is especially important in Lower
Manhattan because of the pressure to have these projects up and running as
quickly as possible to stimulate economic recovery in the area. In addition to
completing the projects on expedited schedules, coordination of many contractors,
subcontractors, and other stakeholders is required.

Additionally, on the PATH Terminal project, key schedule milestones have been
missed, although the Port Authority and FTA’s project management oversight
contractor disagreed on the extent of the delays. The Port Authority’s
February 2008 schedule showed a completion date of July 2012, whereas the
project management oversight contractor has determined that completion will not
occur before November 2013. However, in June 2008, a Port Authority
assessment concluded that a realistic project schedule could not be developed at
that time.

Further, because the design phase for the Port Authority’s Vehicle Security Center
is on hold, it is also experiencing schedule delays. The timely completion of this
project is vital because it affects the completion of Route 9A North. Additionally,
many of the planned benefits of the World Trade Center site cannot be achieved
until the Vehicle Security Center is fully operational. 7 However, the Port
Authority, as of this writing, was in the process of developing project completion
dates.

In order to perform its project oversight role, FTA should continue to focus on
resolving schedule discrepancies. This will allow all parties to manage to realistic
schedule milestones, factoring in the issue of shared resources among the various
projects under construction in Lower Manhattan, particularly at the World Trade
Center site.

Table 3 on the next page provides more details on estimated schedule slippages we
observed on the Lower Manhattan Recovery Projects. As shown in the table,
completion schedule projections have slipped, ranging from 11 months on the
South Ferry Terminal Station project to 41 months on the Route 9A North project
(when comparing the construction agreement’s required completion date to FTA’s
latest risk assessment date).


7
    The scope of the Vehicle Security Center project is under discussion.
                                                                                                      11


       Table 3. Estimated Schedule Slippages for the Projects
                                                                                      Latest FTA Risk
                                                                                      Assessment
                                           Construction                               Estimated
                                           Agreement–            Grantee’s Official   Completion Date
                     Initial Estimated     Required              Estimated            (Date Risk
                     Completion Date       Completion            Completion           Assessment
Project              (Date of Estimate)    Date(1)               Date(2)              Conducted)
Permanent World      2007                  April 2012            July 2012            Nov. 2013
Trade Center         (Feb. 2003)                                                      (Dec. 2007)
PATH Terminal
World Trade          2007                  Pending(3)            Apr. 2011            Jan. 2013
Center Vehicle       (Feb. 2003)                                                      (Dec. 2007)
Security Center
Fulton Street        2007                  July 2010             Nov. 2009            Apr. 2012
Transit Center       (Feb. 2003)                                                      (Sep. 2007)

South Ferry          2007                  May 2008              Feb. 2009            Apr. 2009
Terminal Station     (Feb. 2003)                                                      (May 2008)

Route 9A             May 2006              Not Applicable(4)     Completed            Not Applicable(4)
Promenade South
Route 9A             June 2009             Jan. 2011             Mar. 2010            Jun. 2014
Promenade North      (April 2006)                                                     (Jan. 2008)

Source: FTA.
(1)
    The required completion date is stipulated in the construction agreement as the date certain the grantee
    agrees to accomplish the activities and tasks outlined in the project scope and description.
(2)
    Data as of February 2008, based on grantees’ official estimates.
(3)
    Execution of a construction agreement is anticipated in the fall of 2008.
(4)
    A construction agreement and a risk assessment were not used on this project.

FTA Has Identified Actions that Grantees Must Take, but All Parties
Must Work to Resolve Outstanding Issues
FTA has identified actions that grantees must take to address project management
issues, including those issues that have contributed to cost increases and schedule
delays. However, the Port Authority, in particular, disagreed with some of FTA’s
recommended actions to address these issues, such as the need to strengthen its
project management controls and develop a fully integrated milestone schedule.
To achieve its mission of providing strong stewardship of the Federal investment
in these projects, FTA must fully exercise its oversight by continuing to work with
the Port Authority and MTA to resolve these issues as soon as possible. This
includes ensuring that the grantees address recommendations to mitigate key
project risks that were identified by FTA’s project management oversight
contractors. If costs increase at projected levels, grantees will need to identify
additional local funding sources, including their own limited resources, to make up
for cost overruns. The need to identify local funding is particularly important for
the Port Authority’s PATH Terminal and MTA’s Fulton Street Transit Center
                                                                                 12


projects because FTA’s risk assessments indicated project costs may now exceed
the Federal and local funding committed.

Further, if cost estimates are not reduced and other funding sources are not
available, grantees may need to reduce the scope of one or more of the projects
from what was originally designed, thereby potentially diminishing the benefits
that the projects may provide to those who use the New York City transit system.
For example, to address the rising cost estimates for the PATH Terminal, in June
2008, the Port Authority announced its plans to make unspecified changes to the
project’s original design. Accordingly, FTA would need to review and concur
with any local funding identified or scope changes that the Port Authority plans to
make to the design specified in the project’s construction agreement.

While both of these options are potential solutions, they introduce additional risks
to completing the projects, such as the reliability of the additional funds
committed and the need for scope reductions to be designed and negotiated
between the parties. To address these issues and limit any additional risks, FTA
must sustain its focus in working with its grantees to: (1) provide information on
costs and schedules in a timely manner; (2) resolve project management issues that
have been identified; (3) address recommendations made by project management
oversight contractors; and (4) identify reliable and sufficient funding sources to
complete a project, if costs exceed the Federal funding allocated to each one.

Grantees Have Not Consistently Provided Critical Project Cost and
Schedule Information to FTA in a Timely Manner
The grantees have not consistently provided FTA with critical cost and schedule
data in a timely manner, which affected FTA’s ability to effectively oversee the
Lower Manhattan Recovery Projects. According to FTA, this problem was more
persistent with the Port Authority than its other grantees.

In February 2008, FTA informed the Port Authority that its quarterly report was
missing critical cost and status information necessary to assess the health of the
PATH Terminal project and stated that the reluctance of the Port Authority to
provide the information to FTA was “disturbing.” Because of the Port Authority’s
inaction, FTA stated it could not perform its fiduciary responsibilities and
considered suspending the Port Authority’s ability to draw down from the Federal
funds provided for its two recovery projects.

According to FTA’s project management oversight contractor, at the end of March
2008, the Port Authority began providing monthly reports with more explanatory
and specific forecasts for the PATH Terminal’s progress. However, the reports
did not include the data needed to meet FTA requirements.
                                                                                                                      13


It is critical for FTA’s grantees to provide updated cost and schedule data in a
timely manner and to understand that FTA’s fiduciary responsibility for the
$4.55 billion in Lower Manhattan recovery funding requires their compliance.
Without reliable and timely information, FTA cannot fully carry out its
stewardship responsibilities to protect the Federal Government’s substantial
investment in Lower Manhattan.

FTA Has Identified Management Issues with Its Grantees that Must Be
Resolved
FTA has identified significant staffing and technical issues at the Port Authority
and actions that the Port Authority must take to improve project management. The
Port Authority’s project management challenges were first identified several years
ago, and FTA and the Port Authority still disagree over their severity and how to
address them. Earlier this year, FTA commissioned a report that concluded that
unless the Port Authority made the changes recommended it would lack the
technical capacity and capability to effectively manage its projects. While the
previous Port Authority management disagreed with the overall message of FTA’s
March 2008 report, in June 2008, the new Port Authority management issued its
own report acknowledging the magnitude of the challenges faced and recognizing
that a number of significant issues needed to be resolved.

FTA and the Port Authority should use this as an opportunity to finalize the action
plans developed to address the problems identified in these reports and take the
necessary corrective actions to get the projects on a sound footing. Specifically:

           • As early as August 2005, the Recovery Office’s general engineer raised
             concerns regarding the Port Authority’s lack of staffing on the PATH
             Terminal project. In December 2006, the Recovery Office Director sent
             a letter to the Port Authority documenting concerns regarding the Port
             Authority’s insufficient staff strength and project control resources, and
             requested that the Port Authority address those concerns.               In
             March 2007, FTA’s project management oversight contractor reported
             that the Port Authority had insufficient staff strength and project
             controls to oversee its construction manager/general contractor team.
             Further, the FTA oversight contractor determined that the Port
             Authority’s inadequate oversight resulted in delays in construction
             award dates, the non-award of several packages on the project’s “critical
             path,” 8 increased bid prices that exceeded preliminary engineering
             estimates, and increased estimated project cost. In our opinion, FTA


8
    Critical path analyzes what activities have the least amount of scheduling flexibility (that is, they are the most
    mission-critical) and predicts a project duration schedule based on the activities that fall along the “critical path.”
    Activities that lie along the critical path cannot be delayed without delaying the finish time for the entire project.
                                                                              14


          should have required more immediate action of the Port Authority in its
          2006 letter.

      • According to a March 2008 report commissioned by FTA, the Port
        Authority was not in compliance with FTA requirements because it
        failed 9 of 11 elements of management controls it was measured on.
        For example, under the project integration management element, the
        Port Authority had not proactively monitored and tracked an integrated
        schedule and had been reluctant to collaborate with stakeholders to
        derive a schedule that reflected actual delays. As a result, the project
        management oversight contractor concluded that the Port Authority
        needed to make significant changes to its management approach in
        order to completely demonstrate the technical capacity and capability to
        effectively manage its Lower Manhattan Recovery Projects.

         Port Authority officials disagreed with the overall message of FTA’s
         March 2008 report, contending that their management had been
         sufficient overall. In response to FTA’s assessment that the Port
         Authority had not mitigated risks contributing to cost growth or
         schedule delays, the Port Authority stated that it had developed its own
         cost estimates and they were done professionally and independently,
         based upon 50 percent design and the project scope known at that time.
         In addition, the Port Authority claimed that its construction schedule,
         although aggressive, reflected timeframes that were realistic. The Port
         Authority’s disagreement with FTA, however, does not change the fact
         that its projects have experienced significant estimated cost increases
         and schedule delays. In a May 2008 meeting, Port Authority officials
         acknowledged to us that the PATH Terminal costs were likely to
         increase above their previous $2.5 billion estimate.

      • On June 11, 2008, the Governor of New York requested that the Port
        Authority’s new Executive Director address the budget and schedule
        problems facing construction projects at the World Trade Center site,
        including the FTA-funded PATH Terminal and Vehicle Security Center,
        and to develop, by June 30, 2008, schedules and cost estimates that were
        reliable and achievable. As requested, on June 30, the Port Authority
        released the results of its assessment in a report to the Governor. The
        report concluded that no realistic cost or schedule could be developed at
        that time due to fundamental issues that needed to be resolved first. The
        Port Authority stated that it plans to complete the second phase of this
        assessment by the end of September 2008.

The Port Authority’s recent acknowledgment of the magnitude of the challenges it
faces presents a key opportunity for FTA and the Port Authority to work through
                                                                                                                  15


project management issues, develop realistic cost and schedule estimates, and get
the projects back on track. On July 31, 2008, and August 29, 2008, FTA accepted
the Port Authority’s proposed action plans to address the recommendations from
the March 2008 technical capacity and capability report. However, some of the
planned actions can not be fully addressed until the Port Authority completes its
next assessment by the end of September 2008.              Accordingly, we are
recommending that FTA and the Port Authority, after release of the second
assessment, expeditiously finalize remaining open items in the action plans. We
are further recommending that FTA carefully track the Port Authority’s progress
in carrying out the plan. Going forward, this will require sustained management
focus.

Project management issues have also been identified at MTA. For example, MTA
did not provide strong enough project management on the South Ferry project,
creating problems that could have been avoided had MTA exercised greater
oversight of its contractors. In February 2007, following the completion of the
majority of the concrete work, water leaks were discovered throughout the
contract work area. MTA later concluded that the design-build contractor did not
aggressively tend to such leaks. Initially, the contractor was verbally attributing
the leaks to design issues beyond its responsibility, although this same contractor
is the designer of record.

Further, rail elevations on the South Ferry project’s existing subway tracks did not
match the actual elevation for new tracks installed by the finishes/systems
contractor. According to FTA, project owners typically are responsible for quality
assurance, which means checking the contractors work through daily inspections
and observing significant tests. However, MTA did not exercise these oversight
measures until much later in the construction process.

FTA’s Oversight Contractors Made Recommendations that Grantees Have
Not Sufficiently Addressed
Grantees had not sufficiently addressed some of the recommendations made by
FTA’s oversight contractors. Historically, FTA assigned one project management
oversight contractor to each grantee (it has used other specialized contractors on
an as-needed basis), 9. to conduct risk assessments, review cost and schedules, and
assess the assigned grantee’s plans for the project. This essentially is a sound
approach that can provide early warnings of cost, schedule, and quality problems;
but to be fully successful, FTA must encourage grantees to address identified risks
or provide alternatives, and then mitigate the agreed-upon risks in a timely
manner, before they affect the project costs or schedule. According to FTA, in the
risk management process used by the Recovery Office, grantees are ultimately
9
    FTA retained the services of various oversight contractors specializing in financial, environmental, security, and
    procurement to evaluate a grantee’s operations in each of these specific areas.
                                                                                                        16


responsible for selecting and implementing risk mitigation strategies that minimize
a risk’s probability of occurrence and/or potential impact.            The project
management oversight contractors then document the selected risk mitigation
strategies and monitor risk mitigation activities as part of the ongoing project
management oversight process.

In the case of the Lower Manhattan Recovery Projects, grantees had not taken
sufficient action to address major risks that FTA’s oversight contractors identified.
For example, an April 2006 FTA risk assessment for the Port Authority’s PATH
Terminal project concluded that there was a 90-percent probability that the total
project cost could be as much as $2.5 billion. Despite the identification of risks
that could contribute to cost increases and the development of a plan to address
them, by December 2007 another risk assessment determined that there was a
90-percent probability that total project costs could rise to as much as $3 billion.

The top five cost risks for the PATH Terminal project—based on risk assessments
conducted in April 2006 and September 2007—are presented in table 4 below.

   Table 4. Comparison of Top Five PATH Terminal Project Cost
               Risks Identified in 2006 and 2007
              April 2006 Cost Risks                               September 2007 Cost Risks

Allocation of shared infrastructure costs with other   Cost contributions for shared infrastructure costs
World Trade Center site projects is uncertain.         from third parties to project may be less than
                                                       currently anticipated.
Estimated costs may continue to increase during        Estimated costs may continue to increase during
final design due to design changes and scope creep.    final design due to interdisciplinary design
                                                       integration, design/concept changes, additional
                                                       work done for others, and specific technical
                                                       concerns.
Construction manager/general contractor’s              Construction manager/general contractor’s
guaranteed maximum price contract procurement          guaranteed maximum price contract procurement
format may result in a cost premium.                   format, in which the grantee entered into
                                                       negotiations with a single entity, may result in a
                                                       cost premium.
Schedule delays result in a direct cost impact to      Schedule delays result in a direct cost impact to
project in the form of extended overheads.             project (in addition to escalation) in the form of
                                                       extended contractor overheads, including force
                                                       account and cost-reimbursable contracts.
Cost escalation rate uncertainty due to economic       Only one or two bids were received on several of
factors in the construction industry and delays to     early action contract packages (resulting in a cost
midpoint of construction budget.                       premium), and the construction manager/general
                                                       contractor is not self-performing to the degree that
                                                       was anticipated.
Source: FTA documents.
                                                                                  17


As shown, similar project cost risks were identified in the project management
oversight contractor’s 2006 and 2007 risk assessments. However, based on our
review of key documents and discussions with FTA officials, it is our opinion that
the Port Authority had not taken sufficient actions to address risks that the project
management oversight contractors identified as early as April 2006, thereby
increasing the potential for more cost increases and schedule delays.

Regarding other Lower Manhattan Recovery Projects, we observed problems in
the past that were identified early during project development but were not
addressed in a timely manner. For example, FTA Recovery Office officials, in
conjunction with the project management oversight contractor, conducted a risk
assessment that identified a real estate acquisition cost risk for the Fulton Street
Transit Center project. Specifically, FTA lacked confidence in MTA’s real estate
estimates and the methodology used to develop them, and continually expressed
these concerns to the MTA, both verbally and in writing, for more than a year.
Our review determined that, despite early identification of this risk and
recommended mitigation actions to increase the appraisal values of the properties,
MTA did not proactively address the risk to avoid an impact on project costs. In
reviewing the project’s budget, we concluded that MTA’s inaction in addressing
this risk resulted in a cost increase from $123 million to $157 million.

FTA Does Not Have Sufficient Assurances that Grantees Have Reliable
Funding Sources To Cover Cost Overruns
FTA does not have sufficient assurances from grantees that reliable local funding
sources existed to cover significant project cost overruns, which based on our
review of cost estimates, will likely occur on several projects. Our analysis of
MTA and Port Authority financial documents indicated that the lack of local
funding may be a challenge because both grantees could be faced with fiscally
constrained resources. FTA recently identified MTA’s 2008 through 2013 capital
plan as one of its focus issues on the South Ferry and Fulton Street Transit Center
projects. Further, FTA identified the need for the Port Authority Board to identify
additional funding for the PATH Terminal project as a key action item.
Specifically,

       •   MTA faces the challenge of covering cost overruns on the Fulton Street
           Transit Center project. In an April 24, 2007 letter to FTA, MTA’s
           Executive Director and Chief Executive Officer identified up to
           $56 million in expected surplus resources from the MTA operating
           budget to cover the project’s cost overruns. During a December 2007
           MTA Board meeting, the $56 million was approved. With a number of
           major capital construction projects on the horizon for MTA—and in
           light of its projected constrained fiscal resources—the potential for a
                                                                                                           18


               future shortfall in local funding exists beyond the $56 million,
               particularly if costs escalate further. 10

           •   In December 2006, the baseline cost estimate for the PATH Terminal
               project was identified at $2.2 billion, but costs are anticipated to
               increase to as much as $3 billion, based on the results of FTA’s most
               recent risk assessment. Federal funding is capped at $2.2 billion and the
               Port Authority has already committed an additional $300 million of its
               own money. If project costs exceed the $2.5 billion in total committed
               funding and approach the $3 billion risk assessment estimate, the Port
               Authority would need to identify up to an additional $500 million in
               other funding to construct the PATH Terminal as originally designed.

           •   The Port Authority’s Vehicle Security Center may also exceed its
               Federal funding. The grantee held the project’s forecasted cost at
               $478 million until recently, when it increased to $566 million.
               However, FTA’s project management oversight contractor has
               concluded that the forecasted cost for the Vehicle Security Center will
               be no less than $699 million and could increase to $763 million.

           •   FTA’s March 2008 technical capacity and capability report
               recommended that the Port Authority secure a commitment from its
               Board for additional funding to make the PATH Terminal and Vehicle
               Security Center viable.

FTA’s initial plan was to keep project costs within the Federal funds committed to
each recovery project. This now appears unlikely as FTA will need to look to
grantees to commit their own funding to complete several of the projects, unless it
approves a project’s scope reduction. In our opinion, FTA should request that
grantees prepare a financial plan, as is done for projects funded under the New
Starts program. The financial plans should identify reliable and sufficient funding
sources to cover any increased costs associated with the completion of the projects
as originally designed. Moreover, a precedent has been established for one of the
Lower Manhattan Recovery Projects—the grantee for the Route 9A North project
(the New York State Department of Transportation) developed a financial plan.




10
     On June 9, 2008, the Governor of New York State announced the creation of a commission to
     recommend strategies to fund MTA’s capital projects and operating needs. The commission was
     charged with proposing a series of actions that may include new funding sources, toll and fare
     adjustments, congestion pricing, and initiatives to maximize MTA efficiencies. The commission was
     also directed to consider the role of the Port Authority in funding regional mega-projects, as well as the
     Federal, state, and local government’s responsibility for financing MTA.
                                                                                 19


FTA Has Not Been Fully Successful in Using Its Risk Management
Process and Recovery Plans To Minimize Estimated Cost Increases
and Schedule Delays
We commend FTA for its initial efforts in establishing an independent office
dedicated to the management and oversight of the Lower Manhattan Recovery
Projects and its commitment to establishing a process to identify and mitigate
risks. FTA’s Recovery Office developed two major tools—a risk-based approach
to oversight and construction agreements and recovery plans designed to provide a
streamlined approach to overseeing each project. However, FTA has not been
fully successful in getting its grantees to use the risk process as a tool to manage
their projects and keep them, to the extent possible, on schedule and within the
Federal funding cap. Further, we concluded that the recovery plans, required by
the construction agreements, have not been used in the way they were originally
envisioned. For example, recovery plans were developed to identify actions that
could enable grantees to “recover” the baseline cost and schedule estimates
contained in the construction agreements. Our review showed that recovery plans
were treated largely as a way to document the reasons for increases or delays.

FTA Has Not Been Fully Successful in Getting Grantees to Employ Its Risk
Management Process as a Management Tool
FTA’s use of a risk management process to identify and monitor grantee
performance has not precluded the Lower Manhattan Recovery Projects from
facing significant cost estimate increases and schedule delays. According to the
Recovery Office’s Risk Management Process document, FTA’s risk management
tool is intended to continually identify and monitor risks and develop risk
mitigation plans to address reducing the likelihood and impact of risks on the
projects’ scopes, budgets, and schedules. Once risks are identified, FTA tries to
work with the project grantee to develop a plan to mitigate the risks before they
significantly affect project costs and schedules. The project management
oversight contractor assigned to each project monitors the grantee’s actions to
follow any agreed-to mitigation plans.

Based on our review, FTA has not been fully successful in working with its
grantees to consistently use the risk process as a management tool. According to
FTA, MTA and the Port Authority have accepted the risk management process to
varying degrees, which has affected its usefulness as a method of helping to
minimize cost and schedule risks. FTA officials reported to us that the Port
Authority, in particular, had not taken sufficient action to address risks that were
identified over the course of nearly 2 years and had resisted incorporating the risk
management process into its overall management of the project. In our
discussions with members of the Port Authority staff, they stated that while FTA’s
risk process is a good tool overall, the Port Authority and FTA have often been at
                                                                                 20


odds on the degrees of risk assigned to certain areas of the project. According to
the Port Authority, FTA’s risk management tool would be a better product if the
grantees could be more involved with the risk assessment process.

The continuing trend of escalating estimated project costs and schedule delays
underscores the need for FTA officials to make the risk management process as
effective as possible. This means that FTA must continue to focus on carefully
evaluating the risk assessments of project management oversight contractors, as
well as alternatives provided by the grantees, and it must then follow through to
ensure that grantees, such as the Port Authority, do everything they can to mitigate
the agreed-upon risks in a timely manner. Also, the Port Authority, in particular,
must understand that it is subject to strong Federal oversight because it accepted a
significant amount of Federal funding for the PATH Terminal project and agreed
to the requirements in the construction agreement it signed with FTA. According
to the construction agreement, the Port Authority “pledges its utmost cooperation
in enabling FTA and its consulting contractors both to critique (the Port
Authority’s) risk analyses and perform any separate risk analyses that FTA may
deem appropriate during the course of the [p]roject.”

FTA’s Recovery Plans Have Not Achieved the Goal of Maintaining the
Baseline Cost Estimates and Required Completion Dates of Most Projects
FTA enters into a construction agreement with each grantee so the grantee can
access the Federal funds allocated to the grantee’s project and begin construction.
The construction agreement affirms the grantee’s commitment to the project as
planned and allows FTA to reevaluate the project before releasing any funds for
construction. A construction agreement requires a project recovery plan in the
event of cost increases or schedule delays or both.

As defined in the construction agreement, the fundamental objectives of a
recovery plan are to maintain the required completion date of the project and to
keep the total project costs within the baseline cost estimate—essentially, to
“recover” the baseline estimates to the maximum extent possible. Based on our
review, we concluded that these recovery plans, while in some situations proposed
successful solutions to mitigate immediate problems, in most cases they provided
reasons for cost increases and schedule delays instead of serving as tools to bring
projects back in line with previously agreed-to costs and schedules.

For the Lower Manhattan Recovery Projects, FTA’s construction agreement
requirement for preparing recovery plans, have not fully achieved their expected
results of mitigating cost and schedule impacts. The South Ferry project is an
example of how recovery plans have actually been used as a management tool.
Since FTA issued the construction agreement for the South Ferry project in
February 2005, it has approved five recovery plans. Those plans documented cost
                                                                                   21


increases and schedule delays due to continuing problems, including delays in the
completion of the subway tunnel and signal equipment contracts and higher-than-
expected bids on key contracts, such as the finishes/systems contract. Therefore, it
is our opinion that the recovery plans have not met their intended purpose of
“recovering” baseline cost and schedule estimates. Instead, they have provided a
rationale for a grantee exceeding the baselines.

While in the past they have not fully met their defined purpose, recovery plans are
critical for the Lower Manhattan Recovery Projects because they are to be used as
a tool to manage risk and to ensure that grantees take action on the issues
contained in these plans to reduce the likelihood of additional cost increases and
schedule delays.

FTA and FHWA Have Not Consistently Promoted Interagency
Coordination on the Route 9A North Highway Project
The Route 9A North project is unique among the Lower Manhattan Recovery
Projects in that it is a highway project instead of a transit-related project, and its
completion requires close coordination between FTA and the Federal Highway
Administration (FHWA). In the initial stages of the project, FTA and FHWA did
not coordinate as they should have to fully implement the requirements of an April
2006 memorandum of agreement between the two agencies.

Close interagency coordination—as outlined in the memorandum of agreement
between FTA and FHWA—is required to ensure that the project is completed in a
timely and efficient manner. Describing each agency’s roles and responsibilities,
the memorandum of agreement states that FTA will rely on FHWA to provide
oversight of the project and stipulates that both agencies will cooperate to provide
oversight. While FTA stated that it would rely on FHWA to provide oversight,
FTA has assigned a project management oversight contractor to monitor this
project and to produce a monthly status report. Although using a project
management oversight contractor is not an oversight tool that FHWA employs, the
use of a project management oversight contractor is typical for FTA.

We found that, at the outset, FHWA was not fully engaged with FTA and its
project management oversight contractors. Not only is FHWA’s approach
different from FTA’s, it is also in keeping with roles and responsibilities
established under its Federal-aid program and its agreement with New York State
Department of Transportation (NYSDOT, the project’s grantee) in which it
defined roles and responsibilities for overseeing the project. According to FHWA,
it raised its level of oversight from that stated in the NYSDOT agreement for the
Route 9A North project. We confirmed that in recent months, FHWA’s area
engineer has been attending monthly status meetings and receiving the monthly
                                                                                22


status report from the project management oversight contractor, even though
FHWA did not fully participate in oversight previously.

In order for interagency coordination to be achieved on this unique, high-profile
project, FTA and FHWA must continue to closely coordinate on the Route 9A
North project until it is completed. This is especially important now because
recent significant conflicts between the Port Authority and NYSDOT over the
design and scope of the project have become critical.

RECOMMENDATIONS
Considering the large Federal transportation investment in the Lower Manhattan
Recovery Projects and the initial goal of maintaining 100-percent Federal funding
for these projects, we recommend that FTA continue the strong oversight efforts
already underway and take other specific actions to enhance its oversight of these
projects. Specifically, we recommend that FTA:

1. Work with MTA and the Port Authority to expeditiously finalize for each of
   their projects a single set of realistic, mutually agreed-to cost estimates and
   schedules that reflect all potential risks.

2. After release of the Port Authority’s next assessment, finalize the remaining
   open items in the detailed action plans with the Port Authority to address the
   management challenges identified in FTA’s March 2008 technical capacity and
   capability report, and carefully track the Port Authority’s progress in carrying
   out the plans.

3. Assess what additional actions it could take to ensure that:

   a. grantees address the agreed-upon risks identified through the risk
      management process in a timely manner and

   b. recovery plans are used to mitigate those risks to minimize further
      estimated cost increases and schedule delays.

4. Request that MTA and the Port Authority submit financial plans to FTA—as
   was done for the Route 9A North project—that identify sources of local
   funding to cover likely estimated cost overruns exceeding the Federal funding
   caps.

5. Ensure that the Recovery Office and its project management oversight
   contractor assigned to the Route 9A North project meet with FHWA on a
   periodic basis to encourage better coordination between all parties.
                                                                                     23


AGENCY COMMENTS AND OFFICE OF INSPECTOR GENERAL
RESPONSE
We provided a draft of this report to FTA and FHWA for review and comment on
August 7, 2008. FTA provided us its formal comments, with technical
clarifications, on September 5, 2008, which we incorporated into this report, as
appropriate. FTA’s complete comments are included as the appendix to this
report. FHWA provided informal comments, which we also incorporated into this
report, as appropriate.

FTA’s lengthy comments expressed concern that the draft report either did not
clearly recognize factors outside FTA’s control or did not realistically portray the
degree to which FTA’s oversight process could prevent cost overruns or schedule
delays. For example, the comments noted that market conditions, largely outside
FTA or the grantees’ control, impacted project costs. FTA also commented that
the draft report could more clearly differentiate between FTA’s success in
identifying project risks using its oversight processes, and the difficulties FTA has
encountered in ensuring that grantees address these risks. FTA further noted that
our expectations for recovery plans should be more realistic and that FTA had
limited tools at its disposal to ensure that grantees take effective action to control
estimated cost increases or schedule delays.

We revised the report, as appropriate, to distinguish between factors that were and
were not under the control of FTA and its grantees and to clarify our conclusion
regarding FTA’s oversight processes.            However, we continue to make
recommendations for finalizing unresolved issues and for improving FTA’s
oversight. For example, we clarified our position to state that the specific element
of FTA’s oversight that was not fully successful was getting grantees to use FTA’s
risk management process as a management tool. We also acknowledged the
difficulties FTA would encounter in obtaining grantees’ actions through the
temporary withholding of funds. However, it is our opinion that if FTA and a
grantee agree that certain risks are valid and serious enough, it is realistic to expect
FTA to take stronger action beyond encouraging a grantee to address certain risks,
including using its authority to withhold funds.

In its comments, FTA generally concurred with our recommendations and stated
that it has taken and is planning to take the following actions on specific
recommendations.

Recommendation 1: Concur. FTA stated it is working with the grantees on an
ongoing basis to address issues with cost estimates and schedules. For example,
FTA stated that it was already close to reaching agreement with the Port Authority
on revised cost and schedule estimates in June 2008, when the Port Authority
                                                                                    24


issued the new assessment. FTA then agreed to delay concluding its cost and
schedule updates until the Port Authority completes its second assessment by
September 30, 2008. With respect to MTA, FTA stated that it has a draft recovery
plan for the Fulton Street Transit Center and is awaiting agreement from the MTA
Board on how estimated cost increases will be funded.

OIG Response: We agree with the actions FTA is taking to address the intent of
our recommendation. In our opinion, the Port Authority’s recent planned actions
are an opportunity for FTA and the Port Authority to work through project
management issues. Further, we are encouraged by FTA’s expectations that these
efforts will yield better project management, including finalizing new cost and
schedule estimates after the Port Authority issues its September 30, 2008,
assessment. Regarding MTA’s Fulton Street Transit Center project, cost,
schedule, and funding uncertainties still need to be resolved. Accordingly, we
request that FTA provide us, within 30 days from the date of this report, a target
date of when these actions are expected to be completed by all parties.

Recommendation 2: Concur. FTA stated that the requirements of its March
2008 Technical Capacity and Capability Report clearly required the Port Authority
to submit action plans to address the report’s recommendations within specified
periods of time. FTA indicated that it reviewed the action plans through several
iterations and accepted them. Further, FTA stated that its project management
oversight contractor is prepared to track completion of items included in the plans.

OIG Response: We agree with the actions FTA is taking and plans to take to
address the intent of our recommendation. Based on FTA’s comments, we revised
the report narrative to reflect the current status of the Port Authority’s action plans
and FTA’s approval of them. We also revised the report’s recommendation to
state that FTA should finalize the remaining open items in the action plans after
the Port Authority releases its next assessment. We will continue to monitor the
Port Authority’s progress in implementing its planned actions and the oversight
provided by FTA’s project management oversight contractor.

We request that, within 30 days from the date of this report, FTA provide us with a
target date for finalizing the open items in the action plans. At this critical stage,
FTA and its oversight contractor must closely monitor the plans, address
unresolved issues, and hold the Port Authority accountable for significantly
improving its project management.

Recommendation 3: Concur in part. FTA stated that it will continue to actively
work with its grantees to gain agreement for addressing risks and will continue to
make the best possible use of its available tools, including recovery plans, to
identify project risks, bring risks to the grantees’ attention, and encourage grantees
                                                                                      25


to take the actions necessary to address and mitigate those risks to the extent
possible.

FTA further stated that, to the extent that the report implies that the risk
assessment process has failed because there have been cost overruns and schedule
slippages, OIG has misinterpreted the purpose and use of the tool. According to
FTA, the risk assessment tool is intended to help FTA and the grantee understand
what risks a project is facing and identify actions needed to minimize those
risks—it is not a means to ensure that the risks are totally mitigated. FTA further
stated that our report presupposes that because a risk can be identified, it can be
mitigated if the grantee is diligent. While there have been cost and schedule issues
with these projects, in this case, FTA stated it was not the tool that failed. Rather,
FTA contended that the cost overruns and schedule slippages were caused by a
combination of adverse economic conditions and the unwillingness of some
grantees to take aggressive actions necessary to address project risks. Finally,
FTA stated that some grantees still need to provide meaningful and effective
action by some grantees to address project risks.

OIG Response: Overall, we agree with the actions FTA plans to take to address
the intent of our recommendation. We clarified our position regarding FTA’s
oversight tools but, in our view, FTA could take additional steps to improve the
way in which FTA and its grantees are using these tools.

Regarding FTA’s comment that our report concluded the risk management process
as a failure, misinterpreted the purpose of this tool, and presupposed that identified
risks can be mitigated by a diligent grantee, this was not our intent. We recognize
that not every risk can be fully mitigated and that some risks are outside the
control of FTA and its grantees. However, as we state in our report, in some cases
grantees did not take sufficient action to address the risks that FTA and its project
management oversight contractors identified, which FTA acknowledged. We
clarified our position in the report to state that the tool was not a failure; rather, the
main issue was that FTA was not fully successful in getting its grantees to use the
risk process as a management tool and address risks that could at least be partially
mitigated through sound management practices. In our opinion, if FTA and a
grantee discuss the risks identified by the risk assessment process and agree that
certain risks are valid, it is realistic to expect FTA to do more than encourage a
grantee to take action. In fact, the March 2008 Technical Capacity and Capability
Report stated that the Port Authority “must” take the action recommended for each
deficiency cited, suggesting that FTA can and will be more forceful with a grantee
if it believes a risk is serious enough.

Regarding recovery plans, we agree that FTA must use them as a tool to document
actions planned or taken to minimize further changes to cost or schedule estimates.
                                                                                26


We modified our recommendation to state that FTA should assess what additional
actions it could take to improve the grantees’ use of its oversight tools.

We request that FTA provide us its comments on our modified recommendation
and a target completion date for any planned actions within 30 days from the date
of this report.

Recommendation 4: Concur. FTA stated that it has always asked a grantee, as
part of the recovery plan process, to provide evidence of specific funding sources
it plans to use to cover any cost increase, and will continue this practice. To the
extent that FTA deems a grantee’s financial commitment to be insufficient without
providing a detailed financial plan, FTA stated that it will request such a plan.

OIG Response: We agree with the actions FTA is taking to address the intent of
our recommendation. We request that, within 30 days of this report, FTA provide
us a target date for determining the sufficiency of the Port Authority and MTA’s
commitment to provide additional funding to cover significant estimated cost
increases.

Recommendation 5: Concur. FTA stated that along with its project management
oversight contractor, it has always been available to meet with FHWA regarding
the Route 9A project. FTA further stated that FHWA has consistently been
invited to attend oversight meetings during the last 9 months and FHWA has also
been provided copies of the PMOC reports.

OIG Response: We agree with the actions FTA has taken to address the intent of
our recommendation. Based on FTA’s comments, we consider the actions taken
sufficient to close-out this recommendation.

ACTIONS REQUIRED
We consider FTA’s actions taken and planned reasonable. However, in
accordance with Department of Transportation Order 8000.1C, we request that
FTA provide us with comments on the modification to recommendation 4 and
target completion dates for implementing recommendations 1 through 4 within 30
days of the date of this report.

We appreciate the courtesies and cooperation of FTA and FHWA representatives
during this audit. If you have any questions concerning this report, please call me
at (202) 366-5630 or Thomas Yatsco, Program Director, at (202) 366-1302.
                                        #

cc: Federal Highway Administrator
    FTA Region 2 Administrator
                                       27


FHWA New York Division Administrator
Audit Liaison, OST, M-1
Audit Liaison, FTA, TBP-30
Audit Liaison, FHWA, HAIM-13
                                                                                28




EXHIBIT A. OBJECTIVES, SCOPE, AND METHODOLOGY
Our objectives were to assess (1) the status of each Lower Manhattan Recovery
Project, including costs, funding, schedules, and grantees’ oversight and (2) any
risks that may adversely impact completion of each project. In addition, we
evaluated issues related to FTA’s Lower Manhattan Recovery Office's oversight of
these projects and the activities of the project management oversight contractors
that FTA has assigned to each project.

We interviewed officials from FTA, the Recovery Office, MTA, the Port
Authority, FHWA, the New York State Department of Transportation, and the
Recovery Office’s project management oversight contractors. We also monitored
the status of individual projects by obtaining current developments through
periodic meetings with and inquiries to FTA, grantees, and news sources.

Further, we reviewed material gathered from earlier monitoring efforts on these
projects. We also reviewed the project management oversight contractor’s
monthly updates and specialty spot reports to understand the specific issues
surrounding each project. In addition, to understand the Recovery Office’s risk
assessment process, we received a presentation from the contractor’s risk
specialist and obtained information on the process FTA uses for its New Starts
program. We also reviewed the risk registers and risk mitigation matrices created
by FTA’s project management oversight contractors.

To evaluate the Recovery Office’s oversight tools, we reviewed each project’s
project development agreement, project management plan, construction
agreement, and recovery plans and contractor financial and procurement reviews
of grantees’ management capabilities. We obtained copies of grant awards and
amendments from FTA’s Team-Web database to verify changes made to each
project’s funding. We reviewed MTA’s compliance monitor reports and
correspondence between the grantees and Federal officials.

We reviewed each grantee’s procurement selection process to determine whether
architectural and engineering service contracts followed FTA requirements. In
addition, we interviewed members of the grantees’ staff to get an understanding of
the processes used to develop project schedules, cost estimates, and funding. We
also went on several site tours of the Lower Manhattan Recovery Projects during
the course of this audit. Because this was a monitoring effort, we did not perform
any detailed audit verification, but we did look for and resolve inconsistencies in
the material presented. We conducted our work from August 2006 through
August 2008 in accordance with Generally Accepted Government Auditing
Standards as prescribed by the Comptroller General of the United States.
                                                                      29




EXHIBIT B. CONTRIBUTORS TO THIS REPORT


   Name                                  Title


   Thomas Yatsco                         Program Director

   George Lavanco                        Project Manager

   Timothy Keane                         Management/Program Analyst

   Eileen Merritt                        Management/Program Analyst

   Joseph Tschurilow                     Auditor

   Rosa Scalice                          Auditor

   Harriet Lambert                       Writer-Editor




Exhibit B. Contributors To This Report
                                                                                             30




  APPENDIX. MANAGEMENT COMMENTS



                                                                 Memorandum
            U.S. Department
            of Transportation
            Federal Transit
            Administration

Subject:     ACTION: Response to Office of Inspector General          Date:

             (OIG) Draft Report, “Baseline Report on the Lower
             Manhattan Recovery Projects”
  From:                                                             Reply to
             Robert J. Tuccillo                                     Attn. of:   R.G. Owens
             Associate Administrator for                                        x61689
              Budget and Policy/CFO
      To:    Joseph W. Come
             Assistant Inspector General
              for Highway and Transit Audits


  As we continue to recover from the terrorist attacks of September 11, 2001, in Lower
  Manhattan, the transportation projects underway are not only important to the City of
  Manhattan, but to the Nation as a whole. These projects can and must be completed.

  FTA provides oversight of its grantees to achieve its primary objectives of completing the
  projects, at the best possible cost to the taxpayer, and as expeditiously as possible. We
  appreciate the efforts of the Office of Inspector General (OIG) in providing additional
  oversight to help achieve these objectives. FTA has thoroughly reviewed the OIG’s draft
  report and offers these comments for inclusion in the final report. In addition, we offer a
  number of technical and specific comments for the OIG’s consideration in finalizing its
  report.

  FTA Provides Comprehensive Oversight of the Recovery Projects

  FTA has provided comprehensive oversight of the transit elements of the Lower
  Manhattan Recovery projects since their inception. In order to provide focused, intensive
  oversight necessary on these projects, FTA: established the Lower Manhattan Recovery
  Office (LMRO); brought highly skilled technical expertise onboard to conduct detailed
  evaluations using its established Project Management Oversight Contractor (PMOC)
  mechanism; and applied its risk assessment process before and on a quarterly basis
  during project implementation to fully identify risks to project cost, scope and schedule.


  Appendix. Management Comments
                                                                                           31



While the oversight mechanisms put in place have been highly effective in identifying
project risks and bringing them to the attention of the cognizant grantee, FTA has not
been fully successful in all circumstances. FTA still needs to gain meaningful and
effective action by some of the grantees to remediate the identified project risks. FTA
has a limited choice of tools to have the grantee take action on identified risks.
Therefore, the report could more clearly differentiate between the success and utility of
FTA project oversight in identifying the project risks, and the difficulties encountered in
ensuring that some grantees proactively address those risks.

FTA’s Risk Assessment Tool Functioned Effectively

FTA’s risk assessment process is intended to predict the probabilistic cost and schedule
for a project at various ranges (from 0 to 100 percent). However, FTA uses the 90
percent level for purposes of identifying a cost or schedule number. It analyzes possible
risk scenarios based upon a point-in-time understanding of potential risks. It is not a
deterministic value of cost and schedule. Rather, it is a tool for recognizing project risks.
To the extent that the report implies that the risk assessment process has failed because
there have been cost overruns and schedule slippages, it has misinterpreted the purpose
and use of the tool. The risk assessment tool is intended to help FTA and the grantee
understand what risks the project is facing and identify areas needed to minimize the risk.
It is not a means to ensure that the risks are totally mitigated. While there have been cost
and schedule issues with these projects, in this case, it was not the tool that failed. It was
a combination of adverse economic conditions and the grantee’s unwillingness to take
aggressive actions necessary to better control cost and schedule issues that were within
their control. The failure to make effective use of this information was the basis for FTA
taking action to advise the grantee that it was in jeopardy of being found not to have the
technical capacity to carry out the project, unless it took further action. It was as a result
of this action by FTA that the grantee is now addressing many of the risk items identified
in the risk assessment. While the full outcome of the grantee’s action will not be
available until the end of September 2008, it is already apparent that systemic changes
are being made in the way the grantee is approaching project management.

The report also presupposes that because a risk can be identified, it can be mitigated if the
grantee is diligent. Even though a risk can be identified, the ability to mitigate it cannot
be assumed. For instance, escalation is listed as a major risk in Table 4 of the OIG
report. However, macroeconomic factors control the occurrence of this risk and
mitigation efforts to control this risk are not always possible within the scope of the
project.

Market Conditions Can Affect Project Costs Beyond FTA or Grantee Control

Market factors, largely beyond the direct control of FTA and its grantees, have
significantly affected the cost to complete the LMRO projects. For example, construction
material costs have skyrocketed over the last few years. Between 2002 and 2007, the
cost of structural concrete has increased 77 percent while the cost of steel reinforcing bar



Appendix. Management Comments
                                                                                          32


has increased 118 percent. Such market factors are beyond the control of FTA and its
grantees. However, FTA has taken steps for contending with market factors. In
particular, FTA focused on improving its risk assessment process for new contracts to
provide a better perspective on the possible impact of market conditions before it
executes a contract. While the impact of market conditions is acknowledged in the OIG
report, it does not recognize the impact these costs have on keeping projects within 100
percent of budget, and particularly in its lead-in to the recommendations. We suggest
that the OIG restructure its discussion to more clearly recognize the impact of market
factors and acknowledge that actions enabling FTA or its grantees to keep costs within
the Federal funding cap are not available.

Recovery Plan Expectations Should be Realistic

The report needs to recognize that a recovery plan cannot realistically be expected to
recover all cost overruns and schedule delays. Reductions in cost usually result from
reductions in scope or construction changes. These options are not necessarily available
since FTA and the grantee have
committed to completing the project with the objective of not reducing scope. While
schedule recovery can often be accomplished by acceleration, it is usually not without a
resultant increase in cost. The report also criticizes the recovery plans for not identifying
actions to bring the cost and schedule back in line with the budget, but rather for merely
documenting why increases and delays occurred. While it would be ideal if the grantee
could actually “recover” cost and schedule, the primary benefit of the recovery plan in
the Construction Agreements has been to offer useful tools to encourage and require
grantees to take a constant, consistent, detailed look at their budget and schedule
throughout the project. The plan is to help guide any necessary adjustments. It is the
grantee’s primary responsibility to determine how it will apply this information.

FTA Works Diligently with its Grantees to Manage Project Issues

FTA works diligently with its grantees to address project management issues such as cost
changes and schedule slippage that can be attributed to grantee action or inaction. As
recognized in the report, FTA maintained frequent contact with its grantees, both orally
and in writing, in an effort to resolve issues identified in the risk assessment. While it is
within FTA’s oversight responsibility to inform the grantee of the results of the risk
assessment and the need to prepare recovery plans, it is the grantee’s responsibility to
identify and implement the actions necessary to address those risks. It would be contrary
to FTA’s oversight role to direct a grantee to take specific project related actions in
response to the risk assessment.

FTA took firm and specific action with the grantee to gain its cooperation in addressing
project risk factors. Specifically, FTA issued its Technical Capacity and Capability
Report, which put the Port Authority on notice that changes in its management approach
and structure were necessary in order to achieve the technical capacity to carry out the
project. The Port Authority is undertaking an assessment to address the problems FTA
identified. While it is beyond the capability of the tools available to FTA to “ensure” that



Appendix. Management Comments
                                                                                          33


there are no cost increases, the agency takes actions necessary to gain acknowledgement
from the grantee of the issues, along with a specific action plan to address them.

Finally, FTA notes that the underlying nature of its grant program offers limited tools that
it can use to “ensure” that grantees take effective action to address schedule and cost
issues. Two of FTA’s most useful tools are requiring the grantee to fund any costs
exceeding the Federal commitment, and precluding the grantee from reducing project
scope to save costs without FTA approval. However, even these tools are not always
effective at keeping projects on budget and schedule, particularly when external factors,
such as cost increases in materials, exert a substantial impact on the project. While FTA
has other tools, such as withholding funding or declaring a project in default, these are
extreme measures used as a last resort and inevitably result in further cost increases and
schedule delays.

Recommendations and Responses

FTA appreciates the report’s recognition that FTA has “strong oversight efforts already
underway”, and requests that the OIG acknowledge that FTA has efforts already
underway that address each of the report’s recommendations.

Recommendation 1: Work with MTA and the Port Authority to expeditiously develop
for each of their projects a single set of realistic, mutually-agreed-to cost estimates and
schedules that reflect all potential risks.

Response: Concur. FTA has ongoing efforts working with the grantees to address issues
with cost estimates and schedules. In the case of the Port Authority, FTA undertook a
series of schedule workshops to evaluate every aspect of the schedule from activity
durations and manpower requirements to constructability. We also took part in an
evaluation by an Independent Cost Consultant to evaluate the areas where the Port
Authority and FTA disagreed on costs. We were very close to reaching agreement with
the Port Authority on a revised cost and schedule when the June assessment was issued.
We agreed to delay conclusion of the cost and schedule update until the Port Authority
completed its assessment. This assessment is to be completed by September 30, 2008.
FTA expects that it will yield agreement on cost and schedule and that the Port Authority
will manage the projects according to that agreement. With respect to the MTA, FTA has
a draft recovery plan for cost and schedule and is awaiting agreement from the MTA
board on how the costs will be funded.

Recommendation 2: Finalize a detailed action plan with the Port Authority to address
the management challenges identified in the Recovery Office’s March 2008 technical
capacity and capability report, and carefully track the Port Authority’s progress in
carrying out the plan.

Response: Concur. The requirements of the Technical Capacity and Capability Report
(TC&C) issued to the Port Authority on March 28, 2008, clearly identified the
requirement for the grantee to submit action plans for 12 Immediate Recommendations



Appendix. Management Comments
                                                                                           34


and 35 Additional Recommendations within specified periods of time. The Action Plans
have been reviewed through several iterations. The Immediate Action Plan was accepted
on July 31, 2008. The Action Plan for the 35 additional recommendations was accepted
on August 29, 2008. The PMOC is prepared to track completion of items included in the
Action Plans.

Recommendation 3: Enhance the Recovery office’s oversight tools to ensure that (a)
grantees address the agree-upon risks identified through the risk management process in a
timely manner and
(b) recovery plans are used to mitigate those risks to minimize further cost increases and
schedule delays.

Response: Concur in part. We will continue to actively work with the grantees to gain
agreement for addressing agreed-upon risks. However, as discussed extensively with
OIG staff, it is unrealistic to expect FTA, with the tools it has available, to “ensure” these
actions are taken. FTA will continue to make the best possible use of its available tools
to identify project risks, bring them to the attention of the grantees, and encourage them
to take the actions necessary to address and mitigate those risks to the extent possible.
With regard to recovery plans, FTA will continue to require the grantee to identify why
costs increased or schedules slipped, the implications of those changes, and the actions
planned or taken to minimize, to the extent possible, further cost and schedule changes.

Recommendation 4: Request that MTA and the Port Authority submit financial plans to
FTA – as was done for the Route 9A North project – that identify sources of local
funding to cover likely cost overruns exceeding the Federal funding caps.

Response: Concur. We have always asked grantees, as part of the recovery plan
process, to provide evidence of the specific funding source it will use to provide
additional funds needed to cover any cost increase. We will continue this practice. To
the extent that the grantee’s commitment is insufficient without providing a detailed
financial plan, we will request such a plan.

Recommendation 5: Ensure that the Recovery Office and its project management
oversight contractor assigned to the Route 9A North project meet with FHWA on a
periodic basis to encourage better coordination between all parties.

Response: Concur. FTA and its PMOC have always been available to meet with FHWA
regarding the Route 9A project. Since the project received a Construction Agreement,
communications have been exchanged at all levels of the agencies; from the FTA
Regional Administrator to the FHWA Division Administrator, down through the ranks.
FHWA has consistently been invited to attend oversight meetings during the last nine
months and it also is provided with copies of the PMOC reports.




Appendix. Management Comments
